No. 20-222
In the

Supreme Court of the United States
GOLDMAN SACHS GROUP, INC., et al.,
Petitioners,
v.
ARKANSAS TEACHER RETIREMENT SYSTEM, et al.,
Respondents.
On Petition for a Writ of Certiorari to the
United States Court of A ppeals for the Second Circuit

BRIEF OF FORMER SEC OFFICIALS AND
LAW PROFESSORS AS AMICI CURIAE
IN SUPPORT OF PETITIONERS
Todd G. Cosenza
Counsel of Record
Charles D. Cording
Madeleine L. Tayer
Willkie Farr & Gallagher LLP
787 Seventh Avenue
New York, NY 10019
(212) 728-8000
tcosenza@willkie.com
Counsel for Amici Curiae
September 24, 2020
298300

A
(800) 274-3321 • (800) 359-6859

i

TABLE OF CONTENTS

TABLE OF AUTHORITIES..................................... ii
STATEMENT OF INTEREST ................................. 1
SUMMARY OF ARGUMENT .................................. 3
ARGUMENT ............................................................ 4
I.

II.

THE SECOND CIRCUIT’S PRICE
IMPACT
ANALYSIS
VIOLATES
HALLIBURTON II. ....................................... 4
A.

THE
SECOND
CIRCUIT’S
HOLDING
NULLIFIES
THIS
COURT’S
COMPROMISE
IN
HALLIBURTON II REGARDING
THE BASIC PRESUMPTION. ........... 4

B.

THE SECOND CIRCUIT DEFIED
HALLIBURTON II BY REFUSING
TO CONSIDER THE NATURE OF
THE
CHALLENGED
STATEMENTS
AS
PRICE
IMPACT EVIDENCE. ........................ 7

C.

IF LEFT UNCORRECTED, THE
SECOND CIRCUIT’S DECISION
WILL
ADVERSELY
IMPACT
PUBLIC COMPANIES. .................... 12

THE COURT SHOULD PROVIDE
CLARITY ON REBUTTING THE BASIC
PRESUMPTION GIVEN THE RISING
PREVALENCE
OF
INFLATION
MAINTENANCE CASES NATIONWIDE. 14

CONCLUSION ....................................................... 16

ii
TABLE OF AUTHORITIES

Cases

Page(s)

Alaska Elec. Pension Fund v. Pharmacia
Corp.,
554 F.3d 342 (3d Cir. 2009) .............................. 14
In re Allstate Corp. Securities Litigation,
966 F.3d 595 (7th Cir. 2020) ................... 9, 10, 11
Amgen Inc. v. Conn. Ret. Plans & Tr.
Funds,
568 U.S. 455 (2013) ....................................passim
Ark. Teachers Ret. Sys. v. Goldman Sachs
Grp., Inc.,
879 F.3d 474 (2d Cir. 2018) .............................. 10
Basic Inc. v. Levinson,
485 U.S. 224 (1988) ....................................passim
Dura Pharms., Inc. v. Broudo,
544 U.S. 336 (2005) ........................................... 13
Erica P. John Fund, Inc. v. Halliburton Co.,
563 U.S. 804 (2011) ....................................passim
Erica P. John Fund, Inc. v. Halliburton Co.,
718 F.3d 423 (5th Cir. 2013), vacated
and remanded by 573 U.S. 258 (2014) ........... 8, 9
FindWhat Investor Group v. FindWhat.com,
658 F.3d 1282 (11th Cir. 2011) ......................... 14

iii
Halliburton Co. v. Erica P. John Fund, Inc.,
573 U.S. 258 (2014) ....................................passim
IBEW Local 98 Pension Fund v. Best Buy
Co.,
818 F.3d 775 (8th Cir. 2016) ............................. 10
In re Pfizer Inc. Sec. Litig.,
819 F.3d 642 (2d Cir. 2016) .............................. 14
Schleicher v. Wendt,
618 F.3d 679 (7th Cir. 2010) ............................. 14
In re Vivendi, S.A. Sec. Litig.,
838 F.3d 223 (2d Cir. 2016) .............................. 14
Waggoner v. Barclays PLC,
875 F.3d 79 (2d Cir. 2017) ................................ 10
Other Authorities
Donald C. Langevoort, Judgment Day for
Fraud-on-the-Market: Reflections on
Amgen and the Second Coming of
Halliburton, 57 ARIZ. L. REV. 37, 46-47
(2015) ................................................................... 5

1

STATEMENT OF INTEREST OF AMICI
CURIAE1
The amici curiae are a group of individuals who
have a strong interest in these issues: former officials
of the United States Securities and Exchange
Commission and law professors whose scholarship
and teaching focuses on the federal securities laws.
Although each individual amicus may not endorse
every statement herein,2 this brief reflects the
consensus of the amici that the petition for certiorari
presents exceptionally important questions on the
Basic presumption and a defendant’s right to rebut
the same, the lower courts’ resolution of these issues
was incorrect and threatens to eviscerate that right,
and therefore, judicial review by this Court is
necessary. In alphabetical order, the amici curiae are:
•

Brian G. Cartwright – former General Counsel
of the U.S. Securities and Exchange
Commission from 2006 to 2009;

1 No counsel for a party authored this brief in whole or in part,
and no person or entity, other than amici curiae or their
counsel, contributed money to fund its preparation or
submission. All parties were given proper notice and have
consented to the filing of this brief pursuant to this Court’s
Rule 37.2(a).
2 In addition, the views expressed by amici here do not
necessarily reflect the views of the institutions with which
they are or have been associated whose names are included
solely for purposes of identification.

2
•

Ronald J. Colombo – Professor of Law and Dean
for Distance Education at the Maurice A.
Deane School of Law at Hofstra University;

•

Elizabeth Cosenza – Associate Professor and
Area Chair, Law and Ethics, at Fordham
University;

•

The Honorable Joseph A. Grundfest – William
A. Franke Professor of Law and Business at
Stanford Law School, and Commissioner of the
U.S. Securities and Exchange Commission
from 1985 to 1990;

•

Paul G. Mahoney – David and Mary Harrison
Distinguished Professor of Law at the
University of Virginia School of Law, and Dean
of the same from 2008 to 2016;

•

Adam C. Pritchard – the Frances and George
Skestos Professor of Law at the University of
Michigan Law School;

•

Matthew Turk – Assistant Professor of
Business Law and Ethics at Indiana
University’s Kelley School of Business;

•

Andrew N. Vollmer – Senior Affiliated Scholar,
Mercatus Center at George Mason University;
former Professor of Law, General Faculty,
University of Virginia School of Law; former
Deputy General Counsel of the SEC; and

•

Karen E. Woody – Associate Professor of Law
at Washington & Lee University School of Law.

3
SUMMARY OF ARGUMENT
The questions presented in this appeal are
extremely important to securities class actions. At
stake is whether defendants can rebut the fraud-onthe-market presumption created in Basic Inc. v.
Levinson, 485 U.S. 224 (1988), in opposing class
certification, as squarely required by this Court in
Halliburton Co. v. Erica P. John Fund, Inc., 573 U.S.
258 (2014) (“Halliburton II”). In his vigorous dissent
from the Second Circuit Panel decision affirming the
district court’s granting of class certification, Judge
Sullivan explained that the Second Circuit’s decision
has made Basic “truly irrebuttable,” and class
certification “all but a certainty in every case.”
(Petitioners’ App. at 44a.) As detailed below, this
result eliminates the careful balance struck in
Halliburton II. There, this Court did not reverse the
judge-made Basic presumption, but held that
defendants must be afforded the opportunity to show
at class certification that alleged misstatements did
not have price impact—the premise of the efficient
market theory underlying Basic. The petition for a
writ of certiorari should be granted to make clear to
lower courts the proper approach that should be taken
in securities cases, and to remediate the significant
consequences of the Second Circuit’s nullification of
Halliburton II in the leading circuit for securities
cases and the center of the nation’s financial markets.
In short, lower courts (like the Second Circuit in its
decision below) are frustrating the objectives of
Halliburton II, and this Court should put an end to it.
These questions take on heightened importance
amid the emerging trend of securities class action

4
plaintiffs relying on the novel “inflation maintenance”
theory. This theory, never before sanctioned by this
Court, posits that a class may be certified where an
alleged misstatement does not itself introduce
inflation into the stock price, but simply maintains
inflation previously introduced through some other,
even nonfraudulent, means.
Coupling such an
expansive view of price impact with such a restrictive
view of the right to rebutting price impact recognized
in Halliburton II all but ensures near-automatic class
certification in inflation maintenance cases. That is,
a class will almost always be certified any time a
public company makes generic or aspirational
disclosures about mitigating risk or engaging in best
practices (as nearly all public companies do) and then
suffers a stock price drop. That cannot be consistent
with the aim and holding of Halliburton II. Simply
put, if the Second Circuit’s decision stands, companies
will be almost defenseless against plaintiffs’ class
certification arguments that will become de facto
irrebuttable.
ARGUMENT
I.

THE SECOND CIRCUIT’S PRICE
IMPACT ANALYSIS VIOLATES
HALLIBURTON II.
A.

The Second Circuit’s Holding
Nullifies This Court’s Compromise
in Halliburton II Regarding the
Basic Presumption.

5
In affirming the district court’s legally and
factually flawed class certification order, the Second
Circuit rendered this Court’s decision in Halliburton
II a de facto nullity. Halliburton II reflected a
compromise between the two diametrically opposed
arguments represented in that case: securities class
action defendants urged that Basic’s fraud-on-themarket presumption be overruled, while securities
class action plaintiffs urged that defendants not have
any opportunity to rebut the fraud-on-the-market
presumption at class certification.3
Since this Court’s creation of the fraud-on-themarket presumption in Basic, courts have struggled
with the presumption’s practical application. In Erica
P. John Fund, Inc. v. Halliburton Co., 563 U.S. 804
(2011) (“Halliburton I”), this Court addressed some of
the ambiguity surrounding Basic by rejecting the
argument that plaintiffs must affirmatively show loss
causation to invoke the fraud-on-the-market
presumption. The Court reasoned that loss causation
did not relate to whether an investor had relied on a
misrepresentation “either directly or presumptively
through the fraud-on-the-market theory.” Id. at 813.
Two years later, in Amgen Inc. v. Conn. Ret. Plans &
Tr. Funds, 568 U.S. 455 (2013), this Court seemingly
leaned further in the direction of securities fraud class
action plaintiffs, holding that plaintiffs need not
establish materiality prior to class certification.

3 See Donald C. Langevoort, Judgment Day for Fraud-on-theMarket: Reflections on Amgen and the Second Coming of
Halliburton, 57 ARIZ. L. REV. 37, 46-47 (2015).

6
With Halliburton I and Amgen handed down two
years apart, this Court appeared to be steadily
lowering the bar for securities fraud class action
plaintiffs to advance their cases. In Halliburton II,
Chief Justice Roberts (joined by Justices Kennedy,
Ginsburg, Breyer, Sotomayor and Kagan) reaffirmed
the viability of the fraud-on-the-market presumption.
Importantly, while reaffirming Basic, the Court in
Halliburton II provided much-needed clarity on how
to apply the fraud-on-the-market presumption in
practice. The middle ground established by the
Supreme Court in Halliburton II provides that
defendants in securities fraud class actions must be
afforded an opportunity to rebut the fraud-on-themarket presumption of reliance “with evidence of a
lack of price impact . . . before class certification.” 573
U.S. at 277. Although the majority opinion failed to
overturn Basic and held that plaintiffs need not prove
price impact to first invoke the fraud-on-the-market
presumption, the Court also made clear that
defendants are entitled to an opportunity to rebut the
Basic presumption at class certification by presenting
evidence that severs the link between the alleged
misrepresentations and the stock price. Id. at 279–
80. Significantly, in so holding, the Halliburton II
Court cited Basic’s own lenient expression of the
standard for securities fraud class action defendants
to break that link: “[a]ny showing that severs the link
between the alleged misrepresentation and . . . the
price received (or paid) by the plaintiff” for the shares
in question. Id. at 281 (citing Basic, 485 U.S. at 248)
(emphasis added).

7
This Court’s decision in Halliburton II reflects a
carefully constructed compromise between the
apparently plaintiff-friendly trend in Halliburton I
and Amgen, and the defendants’ contention in
Halliburton II that Basic be overruled entirely. In
many ways, this compromise represents a recognition
of what was implicit in Basic: (i) the presumption of
fraud-on-the-market is exactly that, only a
presumption, and as such, is rebuttable; and (ii)
evidence introduced by defendants demonstrating the
absence of price impact before class certification will
break the link between the challenged statements and
the stock price, thereby defeating that presumption.
See 573 U.S. at 268–69. The Second Circuit here has
nullified defendants’ opportunity to rebut the Basic
presumption at the class certification stage,
undermining this Court’s work in crafting this
delicate compromise.
B.

The Second Circuit Defied
Halliburton II by Refusing to
Consider the Nature of the
Challenged Statements as Price
Impact Evidence.

The Second Circuit incorrectly viewed evidence
about the generic nature of challenged statements as
“a means for smuggling materiality into Rule 23” in
violation of Amgen. (Petitioners’ App. at 21a, n.11 &
22a.) But nothing in Amgen prohibits a court from
considering at class certification the generality or
specificity of the alleged misstatements, which
directly bears on price impact. (See id. at 45a.) In
imposing a blanket prohibition against such evidence,

8
the Second Circuit misconstrued Amgen in much the
same manner as the Fifth Circuit in Halliburton II,
which prompted this Court’s reversal in that case.
In Amgen, this Court held that proof of materiality
is not a prerequisite to certification of a securities
fraud class action. See 568 U.S. at 459. Even though
materiality is a precondition to Basic’s fraud-on-themarket presumption, the Court reasoned, “As to
materiality . . ., the class is entirely cohesive. It will
prevail or fail in unison.” Id. at 460. In so ruling, the
Amgen majority also affirmed the district court’s
refusal to consider Amgen’s “truth-on-the-market”
rebuttal evidence at the class certification stage. Id.
at 481.
On this basis, between Halliburton I and
Halliburton II, the Fifth Circuit concluded that
defendants could not offer evidence of a lack of price
impact at class certification. Erica P. John Fund, Inc.
v. Halliburton Co., 718 F.3d 423 (5th Cir. 2013),
vacated and remanded by 573 U.S. 258 (2014).
Applying Amgen, the Fifth Circuit reasoned that price
impact evidence may not be considered because, like
materiality, price impact does not bear on common
question predominance under Federal Rule of Civil
Procedure 23. Id. at 432.
The Fifth Circuit made the same error as the
Second Circuit did here: because “[t]he price impact
evidence considered here is both similar to and offered
for much the same reason as the materiality evidence”
that this Court in Amgen held should not be
considered at class certification, the Fifth Circuit
refused to credit Halliburton’s contention that it was
challenging reliance, not materiality, through its

9
truth-on-the-market defense. Id. at 434 n.10. This
Court rejected the Fifth Circuit’s analysis in
Halliburton II.
There, this Court explained that, even though the
same issues counseling against considering
materiality evidence could also apply to weighing
price impact evidence at class certification, “[p]rice
impact is different. The fact that a misrepresentation
‘was reflected in the market price at the time of the
transaction’—that it had price impact—is ‘Basic’s
fundamental premise.’ It thus has everything to do
with the issue of predominance at the class
certification stage.” Halliburton II, 573 U.S. 258, 281,
283 (internal citation omitted).
Even though the same evidence often bears on
price impact and materiality, Halliburton II holds
that, notwithstanding Amgen, price impact evidence
may be considered at class certification, not for the
purpose of rebutting materiality or rearguing a court’s
decision on the sufficiency of the complaint’s pleading
of materiality, but to demonstrate a lack of price
impact and thereby to rebut the Basic presumption.
Indeed, the Second Circuit’s decision is
inconsistent with the Seventh Circuit’s recent
decision in In re Allstate Corp. Securities Litigation,
966 F.3d 595 (7th Cir. 2020), which properly held that
the district court violated Halliburton II by failing to
consider permissible price impact evidence at class

10
certification.4
The Seventh Circuit vacated the
district court’s class certification order based on
Halliburton II’s holding that a court may not ignore
price impact evidence because it implicates meritsstage elements of the claim. In its opinion, the
Seventh Circuit underscored the “challenge” courts
face in reconciling Halliburton I, Amgen, and
Halliburton II because they must “(a) decide whether
reliance can be proven by common evidence without
(b) delving too far into the merits of the materiality or
falsity of the representations at issue, while still (c)
reserving loss causation entirely for the merits
phase[.]” Id. at 608. Consistent with these principles,
the Seventh Circuit permitted defendants to
introduce an expert report at class certification
showing that (1) there was “no statistically significant
increase in Allstate’s stock price following any of the
alleged misrepresentations” and (2) “the alleged
misrepresentations could not [i.e., as matter of logic]

4 The Second Circuit decision also deepened a circuit split
between the Second and Seventh Circuits on the one hand,
which each held that the burden of persuasion rests with a
defendant attempting to rebut the Basic presumption, see
Ark. Teachers Ret. Sys. v. Goldman Sachs Grp., Inc., 879 F.3d
474, 484-85 (2d Cir. 2018), Waggoner v. Barclays PLC, 875
F.3d 79, 104 (2d Cir. 2017), In re Allstate Corp. Securities
Litigation, 966 F.3d 595, and the Eighth Circuit on the other
hand, which held that under Federal Rule of Evidence 301,
the burden of production shifts to the defendant when the
plaintiff makes a prima facie showing of market efficiency,
but the burden of persuasion always rests with the plaintiff.
See IBEW Local 98 Pension Fund v. Best Buy Co., 818 F.3d
775 (8th Cir. 2016).

11
have had price impact because Allstate’s growth
strategy . . . was publicly disclosed in the Company’s
conference calls prior to the alleged Class Period, was
covered in analyst reports on the Company prior to
and at the beginning of the alleged Class Period and,
in an efficient market, would have already been
impounded into Allstate’s stock price.” Id. at 611.
Such evidence—similar to the evidence profferred by
Petitioners here—should have been considered by the
district court as price-impact rebuttal evidence, the
Seventh Circuit held, even though it undoubtedly
implicated the separate element of materiality. Id.
The Seventh Circuit’s approach is more consistent
with Halliburton II. Any other reading of these cases
creates a conflict between this Court’s Amgen and
Halliburton II rulings, requiring district courts to
undertake the impossible task of parsing permissible
price impact evidence from impermissible materiality
evidence. As Judge Sullivan persuasively observed, “I
don’t believe that such rigid compartmentalization is
possible[.]” (Petitioners’ App. at 45a.) Without an
affirmation from this Court that, under Halliburton
II, price impact evidence may be presented at the class
certification stage to rebut the Basic presumption,
even if the evidence also implicates materiality, lower
courts will continue to violate Halliburton II and deny
defendants the opportunity to rebut the Basic
presumption with permissible evidence. That is,
although price impact resembles materiality, it would
be “fair” for courts “to consider the nature of the
alleged misstatements in assessing whether and why”
there was no price impact. (Id. at 44a.)

12
C.

If Left Uncorrected, the Second
Circuit’s Decision Will Adversely
Impact Public Companies.

The Second Circuit’s decision impermissibly limits
the price impact evidence that district courts can
consider at class certification. Here, the Second
Circuit barred consideration of the generic nature of
the alleged misstatements, reasoning that the issue
should be dealt with at the pleading stage.
(Petitioners’ App. at 20a n.10.) But that is often not
what happens in practice. At the pleading stage,
plaintiffs regularly argue that materiality is a mixed
question of law and fact, and accordingly cases dealing
with generic statements oftentimes are not resolved
on materiality grounds at the pleading stage. This
Court should make clear that district courts must
consider all relevant price impact evidence (even if it
overlaps with materiality) at the Rule 23 stage.
The Second Circuit’s decision here risks draconian
practical consequences because publicly traded
companies routinely include generic statements of
corporate principle similar to those at issue here in
their public filings. The publication of these anodyne
statements combined with a later stock price drop
should not give rise to automatic class certification,
even if shareholders happen to lose money.
These risks are particularly heightened during the
ongoing COVID-19 crisis, where aspirational
statements about best practices amid a fast-moving
global pandemic can be weaponized by plaintiffs and
turned into a predicate for a securities fraud class
action, as securities markets around the world are

13
extremely volatile. For example, companies in the
airline, hospitality, and related industries that make
generic disclosures about business principles (e.g.,
“Customer safety always comes first,” “We meet the
highest standards of cleanliness,” or “We value the
safety of all our employees”) now face the prospect of
investor securities class action lawsuits after a stock
price drop in the event of a new COVID-19 outbreak
or another pandemic effect.
Granting class
certification in such cases is contrary to this Court’s
precedent and Congressional intent as reflected in the
Private Securities Litigation Reform Act.
See
Halliburton II, 573 U.S. at 277 (explaining that the
PSLRA was enacted “to combat perceived abuses in
securities litigation with heightened pleading
requirements, limits on damages and attorney’s fees,
a ‘safe harbor’ for certain kinds of statements,
restrictions on the selection of lead plaintiffs in
securities class actions, sanctions for frivolous
litigation, and stays of discovery pending motions to
dismiss”); see also Dura Pharms., Inc. v. Broudo, 544
U.S. 336, 345 (2005) (“The securities statutes seek to
maintain public confidence in the marketplace . . . by
deterring fraud, in part, through the availability of
private securities fraud actions. . . . But the statutes
make these latter actions available, not to provide
investors with broad insurance against market losses,
but to protect them against those economic losses that
misrepresentations actually cause.”). The private
right of action under the securities law is not intended
to function as a guarantee against stock price
declines, especially in times of crisis.

14
II.

THE COURT SHOULD PROVIDE
CLARITY ON REBUTTING THE BASIC
PRESUMPTION GIVEN THE RISING
PREVALENCE OF INFLATION
MAINTENANCE CASES NATIONWIDE.

The inflation maintenance theory permits
plaintiffs to argue that certain statements can be
actionable if they merely maintained an already
inflated stock price. See In re Pfizer Inc. Sec. Litig.,
819 F.3d 642, 659 (2d Cir. 2016). Here, the Second
Circuit applied the inflation maintenance theory to
generalized statements of corporate principle, an
unprecedented expansion of an already expansive
theory.
The only two circumstances in which any court had
previously applied the price maintenance theory
involved alleged misstatements that (1) were unduly
optimistic statements about specific, material
financial or operational information made to stop a
stock price from declining;5 or (2) falsely conveyed that
the company had met market expectations about a
specific, material financial metric, product, or event.6
In any event, whatever the merits of this theory,
general statements that companies routinely make in

5 See, e.g., In re Vivendi, S.A. Sec. Litig., 838 F.3d 223 (2d Cir.
2016); Schleicher v. Wendt, 618 F.3d 679 (7th Cir. 2010).
6 See, e.g., FindWhat Inv’r Grp. v. FindWhat.com, 658 F.3d
1282 (11th Cir. 2011); Alaska Elec. Pension Fund v. Pharmacia Corp., 554 F.3d 342 (3d Cir. 2009).

15
corporate disclosures, like the ones at issue in this
case, cannot “maintain” an inflated stock price.
Plaintiffs’ reliance on the theory comes as no
surprise given the recent surge in inflation
maintenance cases filed by securities class action
plaintiffs across the country, and defendants’
extraordinarily low success rates in rebutting the
Basic presumption in such cases. (Petitioners’ App. at
19a n.9.) This trend makes the inflation maintenance
theory susceptible to abuse at class certification,
especially if it is transformed into a catch-all for
securities fraud plaintiffs to certify investor classes
based simply on a stock drop, even when the
challenged statements were too general to cause any
price impact. If allowed to become a catch-all in this
way, it would be in direct contradiction to this Court’s
precedent, see Halliburton II, 573 U.S. 258, and would
result in effectively eliminating the price impact
requirement altogether.
Given the risk of abuse of the inflation
maintenance theory at class certification, it is
particularly important that this Court provide clarity
on what evidence courts can consider in determining
whether a defendant has rebutted the fraud-on-themarket presumption.
Otherwise, plaintiffs
nationwide will continue to benefit from the Basic
presumption, which depends on price impact, even in
cases like this where, under the inflation maintenance
theory, there is no evidence of price impact.

16

CONCLUSION
For the foregoing reasons, the amici curiae believe
that this Court should grant petitioners’ petition for a
writ of certiorari.

Respectfully submitted,

Todd G. Cosenza
Counsel of Record
Charles D. Cording
Madeleine L. Tayer
WILLKIE FARR &
GALLAGHER LLP
787 Seventh Avenue
New York, NY 10019
tcosenza@willkie.com
(212) 728-8000
Counsel for Amici

September 24, 2020

